WAIVER
SUPREME COURT OF THE UNITED STATES

20-1019
Supreme Court Case No.

Jade Thompson

Marietta Education Association, et al
v.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Marietta Education Association

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature

February 9, 2019
(Type or print) Name Scott A. Kronland
Date:

□ Mr.

□ Ms.

□ Mrs.

□ Miss

Altshuler Berzon LLP
Address 177 Post Street, Suite 300
City & State San Francisco, CA
Zip 94108
Phone (415) 421-7151
Email skronland@altber.com
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Andrew Michael Grossman, Nicole Marie Donovsky

